Docket Number:

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

EDDISON RAMSARAN, M_LD.,
Petitioner,

v.

CANDACE LAPIDUS SLOANE, M.D. AND JOSEPH P. CARROZZA, JR., M.D.,
Respondents.

On Petition for Writ of Certiorari
to the Massachusetts Supreme Judicial
Court

CERIFICATE OF SERVICE

L, J. Peter Kelley, Esq., hereby certify on this date I served the enclosed Petition for Writ
of Certiorari in the above maiter to the counsel of record representing all Respondents:

Jesse Boodoo, Esq.
Assistant Attorney General
Government Bureav/Trial Division
One Ashburton Place, 18" Floor
Boston, MA 02108

Service has been effected to the above individual by depositing the enclosed Petition for
Writ of Certiorari with a third-party commercial carrier for delivers Ya the above add

as via email to jesse. boodoo@state.ma.us.

20 Mall Road, Suite 225
Burlington, MA 01803
Tel: (781) 262-0690
Fax: (781) 229-0383
DATED: August 6, 2021 kelley@brucekelleylaw.com

ess, as well

  
  

    

Signed under the pains and penalties of perjury:
Counsel for the Petitioner:

 
